BECKER GALLAGHER
Briefs

Supreme Court of the United States
United States Courts of Appeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
Amicus Curiae Southeastern Legal Foundation in
Support of Petitioners in 19-1231 & 19-1241, Federal

Communications Commission, et al. v. Prometheus
Radio Project, et al. and National Association of
Broadcasters, et al. v. Prometheus Radio Project, et al.,

were sent via Next Day Service to the U.S. Supreme
Court, and Next Day and e-mail service to the
following parties listed below, this 23rd day of
November, 2020:
Helgi C. Walker
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8500
hwalker@gibsondunn.com
Counsel for Petitioners
National Association of Broadcasters, et al.

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioners FCC, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Ruthanne Mary Deutsch
Deutsch Hunt, PLLC
300 New Jersey Ave., NW, Suite 900
Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com
Counsel for Respondents
Prometheus Radio Project; Media Mobilizing Project;
Free Press; Office of Communication, Inc. of the United
Church of Christ, et al.

Jack N. Goodman
Law Offices of Jack N Goodman
1200 New Hampshire Ave, NW
Suite 600
Washington, DC 20036
(202) 776-2045
jack@jackngoodman.com
Counsel for Independent Television Group

Dennis Lane
Stinson LLP
1775 Pennsylvania Ave., NW. Suite 800
Washington, DC 20006
(202) 572-9906
dennis.lane@stinson.com
Counsel for Multicultural Media, Telecom and Internet
Council and the National Association of Black Owned
Broadcasters, Inc.

Andrew Jay Schwartzman
1341 G Steet NW
Fifth Floor
Washington, DC 20005
(202) 241-2408
andyschwartzman@gmail.com
Counsel for Benton Institute for Broadband & Society,
National Hispanic Media Coalition, National
Organization for Women Foundation, Media Alliance
and Media Counsel Hawai 'i

Tyler R. Green
Counsel of Record
Jeffrey M. Harris
Alexa R. Baltes
Tiffany H. Bates
Antonin Scalia Law School
Supreme Court Clinic
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
tyler@consovoymccarthy.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 23, 2020.

DonnaJ. W
Becker Gallagher Le al Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

